   March 12, 2003




Information Technology
Management

The Development of the Navy
Standard Integrated Personnel
System
(D-2003-061)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ASD(C3I)              Office of the Assistant Secretary of Defense (Command, Control,
                         Communication, and Intelligence)
COTS                  Commercial Off-The-Shelf
DIMHRS                Defense Integrated Military Human Resources System
DSB                   Defense Science Board
EFSR                  Electronic Field Service Record
FOC                   Full Operating Capability
JR&IO                 Joint Requirements and Integration Office
MDA                   Milestone Decision Authority
MAISRC                Major Automated Information Systems Review Council
NSIPS                 Navy Standard Integrated Personnel System
            Office of the Inspector General of the Department of Defense

Report No. D-2003-061                                                     March 12, 2003
   (Project No. D2002FH-0135)

                    The Development of the Navy Standard
                         Integrated Personnel System

                                 Executive Summary

Who Should Read This Report and Why? Managers who plan, develop, or oversee
DoD automated information systems should be interested in this report because of the
issues of coordination of ongoing legacy system development with replacement systems.

Background. In 1995, the Navy began developing the Navy Standard Integrated
Personnel System to replace four legacy systems. The Navy declared that it needed a
standard, single point-of-entry system for personnel and pay data collection at the field-
level, ashore and afloat. On July 10, 1995, the Major Automated Information Systems
Review Council (Council) approved Milestone 0 for the Navy System. While approving
the milestone, the Council also stated that the Navy System should incorporate the core
capabilities of a common DoD-wide military personnel system. This common system,
which has also been referred to as the objective system, subsequently was designated as
the Defense Integrated Military Human Resources System. In the following year, the
Defense Science Board Task Force on Military Personnel Information Management
further recommended requirements for the objective system. Concurrently, the Defense
Science Board report recommended that the Navy redirect its efforts and develop its new
system by broadening the development of the Navy System to encompass the objective
system requirements and subsequently become the field-level entry system for the
Defense Integrated Military Human Resources System.

By the time the Navy System reaches full operating capability in second quarter
FY 2003, the Navy will have spent $265 million on development. Further, the Navy
intends to spend an additional $201.8 million on the system after it reaches full operating
capability. Of this later amount, almost $33.4 million will be spent from the Research,
Development, Test, and Evaluation appropriation, which in accordance with budget
guidelines, is to be used for software development, while the Operation and Maintenance
appropriation is to be used to operate the system and maintain the software.

Results. The Navy continues to program and spend funds to enhance the Navy Standard
Integrated Personnel System (System) even though the Defense Integrated Military
Human Resources System is scheduled to replace the System in FY 2005. Because the
Defense Integrated Military Human Resources System will replace the System in
FY 2005, the $33.4 million that the Navy has programmed for further development of the
System after it achieves full operating capability could be put to better use. We
recommend that the Navy not expend any more money developing the System after
achieving full operating capability in second quarter FY 2003. See the Finding section of
this report for the recommendation details. We identified a material weakness in that
neither the Program Executive Office-Information Technology nor the Navy Standard
Integrated Personnel System Program Management Office had established a management
control program, and no annual assessments had been done.
Management Comments. We issued a draft report on November 29, 2002, in which we
requested that the Navy Program Executive Office-Information Technology comment on
the draft report by January 29, 2003. No management comments were received and we
request that the Navy Program Executive Office-Information Technology comment on
this final report by April 14, 2003.




                                        ii
Table of Contents

Executive Summary                                                    i

Background                                                          1

Objectives                                                          1

Finding
     Replacement of the Navy Standard Integrated Personnel System    3

Appendixes
     A. Scope and Methodology                                        8
          Management Control Program Review                          8
          Prior Coverage                                             9
     B. Report Distribution                                         10
Background
    The Navy Standard Integrated Personnel System. The Navy developed the
    Navy Standard Integrated Personnel System (NSIPS) to replace four legacy
    systems. In early 1995, the Navy published a mission need statement for NSIPS.
    It declared that a standard, single point-of-entry system was needed for personnel
    and pay data collection at the field-level, ashore and afloat. Further, it identified
    the four Navy legacy systems that NSIPS would replace, which are the Source
    Data System, Diary Management Reporting System, Uniform Microcomputer
    Disbursing System, and the Reserve Standard Training, Administration, and
    Readiness Support for Manpower and Personnel. NSIPS combines the
    functionality of the four legacy systems into one standard field personnel and pay
    input/collection system with standard business processes for active and reserve
    personnel, ashore and afloat. NSIPS interfaces with 11 Navy corporate systems
    and the Defense Joint Military Pay System (Reserve Component). With
    Release 1, it will also interface with the Defense Joint Military Pay
    System (Active Component). In the mission need statement, the initial estimated
    cost for developing NSIPS to full operating capability (FOC) was $92.7 million.
    By the fifth version of the Acquisition Program Baseline, August 8, 2001, the cost
    estimate was $234.1 million to FOC. In a draft Acquisition Program Baseline,
    October 2002, the estimated cost to FOC was $265.0 million. The Defense
    Integrated Military Human Resources System (DIMHRS) is scheduled to replace
    NSIPS in FY 2005.

    The Defense Integrated Military Human Resources System. The Under
    Secretary of Defense for Personnel and Readiness approved a mission need
    statement for a single, fully integrated, all-Service, all-Component, military
    personnel and pay management system on February 24, 1998, that is, DIMHRS.
    DIMHRS is intended to be a joint personnel and pay system that is expected to
    replace about 80 legacy personnel systems, including NSIPS, and to provide
    personnel and pay services for all DoD military personnel. DIMHRS will consist
    of core business processes common to all Services and may be supplemented by
    Service-specific needs. The core system will collect, store, transmit, process, and
    report personnel and pay data for all DoD active duty, Reserve, National Guard,
    and retired military personnel. Service-specific functionality will be provided by
    DIMHRS for any pay and personnel management processes that were supported
    by the Services legacy systems but will not be included in the core system. The
    estimated cost of developing DIMHRS is $529 million in FY 2001 dollars.


Objectives
    The initial overall objectives were to determine whether NSIPS met Navy-defined
    functional requirements as well as requirements needed to be fully interoperable
    with DIMHRS and the future Financial Management Enterprise Architecture. In
    addition, we planned to evaluate NSIPS compliance with DoD criteria for data
    security. We also planned to review the management control program as it relates
    to the audit objective. Based upon a decision of the Office of the Assistant


                                          1
Inspector General for Auditing of the Department of Defense management, we
established a new objective. The objective was to determine whether the Navy
should continue the expenditure of funds to enhance NSIPS. The initial
objectives, except for the management control program, are not discussed in this
report. See Appendix A for a discussion of the scope and methodology and the
review of the management control program.




                                    2
                Replacement of the Navy Standard
                Integrated Personnel System
                DIMHRS is scheduled to replace NSIPS in FY 2005, yet the Navy
                continues to program and expend funds to enhance NSIPS beyond the date
                at which NSIPS will achieve FOC. NSIPS will be replaced by DIMHRS
                because the Navy did not comply with the Major Automated Information
                System Review Council (MAISRC) agreement to ensure that NSIPS
                included the core capabilities required to support joint requirements for
                the objective (DIMHRS) field-level data collection personnel system. As
                a result, at least $33.4 million will be spent on NSIPS that could be put to
                better use.


The Milestone Decision Authority
        On July 10, 1995, the MAISRC1 completed a Milestone 0 review of the NSIPS
        program. The MAISRC endorsed an evolutionary program strategy with NSIPS
        providing near-term operational capabilities to meet the Navy’s current need and
        “…core capabilities to build toward a common DoD-wide military personnel
        system.” [emphasis added]. The common DoD-wide military personnel system
        was subsequently designated as DIMHRS.

        The System Decision Memorandum2 for the NSIPS Milestone 0 decision, dated
        July 25, 1995, stated that the Navy had agreed to ensure that NSIPS would
        include the core capabilities required to support joint requirements of the single,
        objective system. The memorandum also stated that the MAISRC had agreed to
        ask an independent group, such as the Defense Science Board (DSB), to conduct a
        study of the Departments requirements.

        The Defense Science Board. In 1996, a DSB Task Force (Task Force) on
        Military Personnel Information Management was convened at the request of the
        Under Secretary of Defense (Personnel and Readiness) and the Office of the
        Assistant Secretary of Defense (Command, Control, Communication, and
        Intelligence) (ASD[C3I]) to address specific issues and to make recommendations
        to the Department regarding the development and maintenance of its automated
        systems for military personnel and pay management. Following a period of study
        from February 1996 to August 1996, the Task Force unanimously concluded that
        the manner in which the Services developed and maintained multiple Service-
        unique military personnel and pay systems had led to significant functional



1
  The MAISRC was eliminated by memorandum dated July 28, 1998, but ASD (C3I) continues as the
Milestone Decision Authority for the Acquisition Category IA programs.
2
 At the time of the milestone decision, this document was required by DoDI 8120.2, “Automated
Information System (AIS) Life-Cycle Management (LCM) Process, Review, and Milestone Approval
Procedures,” January 14, 1993, for issuing decisions and direction to the DoD Component.



                                                3
           shortcomings and excessive costs. The Task Force identified three principal
           problem areas in the military’s automated personnel management:

                   •    functional shortcomings in the existing capabilities,

                   •    excessive costs in developing and maintaining largely redundant
                        capabilities, and

                   •    the inadequacy of the current infrastructure relative to required
                        operational capabilities.

           The DSB recommended that the Department move to a single all-Service and all-
           Component, fully integrated personnel and pay system with common core
           software built on a commercial off-the-shelf (COTS) (or modified COTS) human
           resources software application base. The Task Force report stated that the Navy
           should refocus its primary effort on developing the objective system, DIMHRS,
           without delaying its accelerated development and deployment schedule for
           NSIPS. Further, the Navy was to broaden NSIPS to encompass the objective
           system requirements as developed by the Joint Requirements and Integration
           Office (JR&IO).3 Wherever possible, NSIPS requirements were to be satisfied
           through early incremental fielding of objective system modules. The Navy was to
           continue its role as executive agent for the field-level4 component of the objective
           system. Customization of the software began in February 1998 and the first
           NSIPS release, Release 0, was made in February 2000. Release 0.2 became
           operational in September 2001, and Release 1 is scheduled to become operational
           in second quarter FY 2003.

           The Major Automated Information System Review Council. Both NSIPS and
           DIMHRS are Major Automated Information System programs for which the
           Milestone Decision Authority (MDA) ASD(C3I)/DoD Chief Information Officer.
           DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” April 5,
           2002, states that the MDA shall review each technology project or acquisition
           program at each milestone and other points in the process. At each milestone and
           at the Full-Rate Production Decision, the MDA has the option to continue the
           project or program, modify the project or program, terminate the project or
           program, or proceed into the next phase. The MDA may hold other reviews to
           adjust plans, review progress, or determine how to proceed to production.


NSIPS Development
           All of the requirements originally established for NSIPS, such as incorporating
           the functionality of the four legacy systems, will be incorporated in Release 1,

3
    A recommendation to establish the JR&IO, which did not exist when the report was published, was also
    included in the report. The JR&IO was officially established by memorandum dated July 1997.
4
    The term field-level component was not defined in the report except to note that the objective system
    (DIMHRS) was to be composed of a field-level and corporate-level component. We understand the term
    field-level to mean that portion of the system used at the installation rather than a centralized or
    headquarters level and used to enter pay and personnel data for individual military personnel.



                                                     4
            which is scheduled for initial operating capability in second quarter FY 2003 and
            FOC in second quarter FY 2003. Yet the Navy continues to develop NSIPS, even
            though NSIPS Release 1 will satisfy the original Navy requirements and
            DIMHRS is scheduled to replace NSIPS in FY 2005. Although NSIPS was
            supposed to incorporate joint requirements and the DSB recommended that
            NSIPS be developed as the field-level component of DIMHRS, this did not occur
            because of the strategy used for developing NSIPS. Therefore, the ongoing
            development of NSIPS will not directly benefit the DIMHRS program as was
            envisioned by the DSB.

            Use of Commercial Off-the-Shelf Software. Following the recommendation of
            the DSB, NSIPS was developed using COTS. However, subsequent
            modifications to the PeopleSoft Human Resources software largely eliminated the
            perceived advantages of using COTS. In June 1997, the Naval Reserve
            Information Systems Office reported that the PeopleSoft Human Resources
            Software had a 64 percent data fit and a 78 percent functional fit out of the box.
            However, by September 1997, Lockheed Martin, the principal contractor,
            completed its design analysis and concluded that the PeopleSoft product only had
            a 35 percent fit. Notwithstanding the 35 percent fit, the Navy decided to move
            forward with the COTS. Later, when Release 0 was fielded in February 2000,
            only 4 percent of NSIPS was attributed to unchanged COTS; that is, 96 percent of
            the COTS applications were changed.5

            Although the current release (Release 0.2) of NSIPS manifests little resemblance
            to the PeopleSoft Human Resources software, the Navy asserts that each future
            release of NSIPS will move closer to the “out-of-the-box” configuration of the
            PeopleSoft software. This will require the Navy to reengineer its business
            processes to adapt to the business processes built into the PeopleSoft product. In
            its haste to field NSIPS, the Navy did not do this in its previous releases of NSIPS
            even though the Clinger-Cohen Act requires that the function be examined and
            redesigned or reengineered before applying new technology.

            Current Navy Efforts. Although the operating future of NSIPS is limited, the
            Navy continues to program and spend money on developing the system. Both
            past and future spending on NSIPS is shown on Figure 1. The amounts shown for
            Pre-FOC are from the program’s beginning and extend to second quarter
            FY 2003. The amounts for Post-FOC extend from the end of the Pre-FOC period
            through FY 2009.




5
    The report that analyzed the changes to the COTS products did not separately present the extent of the
    modifications to the three major COTS applications that comprise NSIPS.



                                                        5
                                             $300
                   Amount by Appropriation
                        ($ millions)         $250
                                             $200
                                                                                      RDT&E
                                             $150
                                                                                      OPN
                                             $100                                     OMN
                                              $50
                                               $0
                                                    Pre-FOC           Post-FOC
                                                         Spending Period
                 OPN   Other Procurement, Navy
                 OMN   Operations and Maintenance, Navy
                 RDT&E Research, Development, Test, and Evaluation


               Figure 1. NSIPS Expenditures Before and After FOC

           Although the Navy continued development of Release 1 during FY 2002, little of
           the FY 2002 spending, which is included in the Pre-FOC amounts, was for
           development of Release 1. Most of the FY 2002 spending for system
           development, approximately $10 million of the $12.4 million, was for developing
           an electronic field service record (EFSR) to replace the current paper personnel
           files for sailors.6 During FY 2003, the Navy has another $4 million budgeted to
           complete the EFSR development. An additional $10 million is budgeted to buy
           equipment for fielding of EFSR. The EFSR is being developed without
           consideration of joint requirements for an EFSR; that is, the JR&IO was not
           providing the Navy with joint requirements. Therefore, the Navy is spending
           money to develop its own EFSR without input from JR&IO on joint requirements,
           and it is not clear how this spending will help achieve the Department’s goal of an
           integrated military pay and personnel system.


FY 2003 and Beyond
           Although Release 1 of NSIPS will be fielded in second quarter FY 2003, the
           Navy intends to spend almost $33.4 million on NSIPS development that could be
           put to better use after FOC. Table 1 shows the amounts programmed beyond
           FOC in second quarter FY 2003 for NSIPS by appropriation. Of particular note is

6
    The Navy might add that the EFSR was part of a plan for pre-planned product improvement; however, it
    was not part of the requirement established in the Operational Requirements Document for Milestones I
    and II.



                                                            6
    the $33.4 million programmed for Research, Development, Test, and Evaluation,
    which is the appropriation used for financing software development according to
    the DoD Financial Management Regulation. Additionally, the Navy has budgeted
    $148.9 million in the Operations and Maintenance appropriations, which is the
    appropriations used for financing the operation and maintenance of systems, not
    for system enhancements.


            Table 1. NSIPS Post-FOC Budget as of End of FY 2004 Program
                            Objective Memorandum Cycle
                                          ($ millions)
            FY 03                                                              Total
             Post        FY 04    FY 05     FY 06     FY 07   FY 08   FY 09     Post
             FOC                                                               FOC
      OMN    $15.6       $28.8    $23.7       $22.0   $19.3   $19.6   $19.9   $ 148.9
      OPN      8.1         0.4      0.3         5.2     5.4      0       0       19.4
      RDT&E    7.7         4.8      4.5         4.2     4.2     3.9     4.1      33.4
      Total  $31.4       $34.0    $28.5       $31.4   $28.9   $23.5   $24.0    $201.7

      OMN      Operations & Maintence, Navy
      OPN      Other Procurement, Navy
      RDT&E Research, Development, Test & Evaluation

    The merits of the individual future NSIPS enhancements or the value of each
    future release of NSIPS notwithstanding, NSIPS is scheduled for replacement in
    FY 2005 by DIMHRS. Meanwhile, the Navy continues to enhance a program
    destined for replacement rather than meeting the original objective of
    incorporating joint requirements into NSIPS so that NSIPS would be the field-
    level component of the objective system, now DIMHRS. To avoid spending
    funds unnecessarily, the Navy should stop spending money for any NSIPS
    enhancement or releases other than to complete Release 1.


Recommendation
    We recommend that the Navy Program Executive Office-Information Technology
    direct the Navy Standard Integrated Personnel System Program Management
    Office to discontinue further spending for the Navy Standard Integrated Personnel
    Systems development.




                                            7
Appendix A. Scope and Methodology
    At the conclusion of our survey fieldwork, the audit objectives were revised to
    limit our focus to why the Navy continues to spend money on NSIPS when
    DIMHRS is going to replace NSIPS. Furthermore, we wanted to determine why
    the MDA did not make decisions about NSIPS and DIMHRS within the context
    of a broad multi-program rather than as single unrelated programs.

    Our primary fieldwork was conducted at the NSIPS program management office
    located in New Orleans, Louisiana. We also met with representatives of Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence);
    the Joint Requirements and Integration Office; the Naval Reserve Command; the
    Defense Finance and Accounting Center; and the Navy Total Force Programming,
    Manpower, and Information Management Division. We reviewed NSIPS
    requirements documents including the mission need statement, several versions of
    the Operational Requirements Document, the report of the Defense Science Board
    Task Force on Military Personnel Information Management, and budget and
    programming documents. We reviewed five versions of the Acquisition Program
    Baseline and budget and program documents. We also reviewed the Operational
    Requirements Document for DIMHRS. Finally, we conducted a number of
    interviews with the program management staff and others to obtain information
    about the history, current development work, and future plans for NSIPS.

    We performed this audit from May through November 2002 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified high-risk areas in DoD. This report provides coverage of the DoD
    Systems Modernization high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We had intended
    to limit our review to an evaluation of the management control program and
    management’s self-evaluation. We determined that the Navy Program Executive
    Officer for Information Technology did not have an operating management
    control program nor did the Program Management Office. Because management
    had not performed a self-evaluation, we were unable to review the evaluation.



                                        8
    Adequacy of Management Controls. We identified material management
    control weaknesses for the program management office, as defined by DoD
    Instruction 5010.40. The lack of a management control program and the ensuing
    lack of a self-evaluation constituted a material management control weakness in
    the program management office. Management took the first step toward
    complying with DoD Instruction 5010.40 in June 2002 when the Program
    Executive Office-Information Technology established assessable units including
    the NSIPS program management office. A copy of the report will be provided to
    the senior official responsible for management controls in the Navy Program
    Executive Office-Information Technology.

    Adequacy of Management’s Self-Evaluation. Management had not performed
    a self-evaluation of management controls. A management control program has
    not been established for NSIPS.

Prior Coverage

    No prior coverage has been conducted on the NSIPS program during the last
    5 years.




                                       9
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Under Secretary of Defense for Personnel and Readiness
  Deputy Under Secretary of Defense for Program Integration
      Director, Joint Requirements and Integration Office
  Deputy Assistant Secretary of Defense (Military Personnel Policy)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense, Deputy Chief Information Officer
      Director, Investments and Acquisitions

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
  Deputy Assistant Secretary of the Navy (Command, Control, Communications,
      Computers, and Information/Electronic Warfare/Space)
  Program Executive Officer for Information Technology
      Program Manager, Navy Standard Integrated Personnel System
Naval Inspector General
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service




                                          10
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          11
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
David F. Vincent
Barbara A. Sauls
H. Ronald Tollefson
Kenneth A. Weron
Woodrow W. Mack
Marlon A. Moreira
Randall M. Critchlow
Nathan Witter
Leon D. Bryant
Yalonda N. Blizzard
Ann Thompson
